c

11=1168

filed
MAR 1 6 2020

In the

Supreme Court of tJjr fflntteb States;
MIREKMACHALA,
Petitioner,
v.
LIBUSE KRAL and NICHOLAS A. BROWN,
Respondents.
On Petition for Writ of Certiorari
to the District of Columbia Court of Appeals

PETITION FOR WRIT OF CERTIORARI

MIREKMACHALA
Petitioner Pro Se
3430 Connecticut Ave., N.W.
No. 4902
Washington, DC 20008
Telephone: 202-556-0756

RECEIVED
MAR 2 5 2020
r

OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
1. Whether Petitioner's due process right was
violated when the District of Columbia Court of
Appeals denied his petition for rehearing within
no time and without providing any reasons for
such denial?
2. Whether a denial of due process which does not
amend any generally applicable substantive or
procedural laws, but deprives Petitioner of the
right to pursue his pending lawsuit, violate the
Due Process Clause of the Fourteenth
Amendment?
3. Whether summary judgment was reached in
violation of the requirements of procedural due
process?
4. Whether judgment rendered in violation of the
due process is void in the District of Columbia?
5. Whether Petitioner was denied equal protection
of law and due process of law when the trial court
repeatedly denied Petitioner’s due process,
including motions to compel discovery, without
any evidence of surprise or prejudice to opposite
parties?
6. Whether D.C. Court of Appeals Memorandum
Opinion and Judgment are not supported by
substantial evidence in the record, is not in
accordance to the law, and an abuse of
discretion?

PARTIES TO THE PROCEEDING
The parties to the proceeding in the courts, whose
judgments or orders are subject of this petition
includes:
Petitioner is Mirek Machala (Appellant in the District
of Columbia Court of Appeals and Plaintiff in the trial
court).
Respondents are Libuse Krai and Nicholas A. Brown,
(Appellees in the District of Columbia Court of Appeals
and Defendants in the trial court).

11

TABLE OF CONTENTS
Page(s)
QUESTIONS PRESENTED
PARTIES TO THE
PROCEEDING . ..

1

11

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES

Vll

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE ... 2
A. Factual Background

3

1. Statement of the case setting out the facts
material to consideration of the questions
presented................................................... 3
REASONS FOR GRANTING THE WRIT

4

DEPRIVATION OF CONSTITUTIONAL RIGHT ... 6
I.

This Court Should Grant Certiorari Because
the Opinion of DCCA Conflicts with
Decisions of This Court and DCCA ...........

in

6

II. This Court Should Grant Certiorari to address a
recurring question of opportunity to be heard in a
meaningful manner in original proceedings before
D.C. Superior court and D.C. Court of Appeals ... .8
III. This Court Should Grant Certiorari Because
the Judgment Rendered in Violation of Due
Process is Void.......................................................
A. Judgment Was Rendered
in Violation of Due Process

9

9

1. Required TOPA Notices - Service of
Process Violated Due Process.........

13

2. The Inadequate Opportunity Afforded
Plaintiff to Review Required TOPA
Documents Violated Due Process

14

a) Proceedings in The Trial Court Were
Altered by Spoliation of Evidence ... 15
b) Proceedings in The Trial Court Were
Disrupted by Obstruction
of Justice............................................. 17
3. TOPA Negotiation Period

19

4. Defendant Krai’s False Assertions
Violated Due Process.....................

21

IV
A •TW.V-c"'-

IV. This Court Should Grant Certiorari Because
DCCA Abused its Discretion in Affirming the D.C
Superior Court August 18, 2018 Decision
and Order..................................................................

22

V. This Court Should Grant Certiorari Because
the Trial Court's Order Denying Petitioner
Motions to Compel Discovery Deprived Him
Due Process and Equal Protection of Law........

22

A. Discovery in this Case is Incomplete ....

22

VI. This Court Should Grant Certiorari Because
Trial Court Rested Its Judgment Upon the Existence
of Unresolved Disputed Genuine Issues of Material
26
Fact Which Preclude Summary Judgment
A. Inadmissible Evidence - Sharka Waldhofs
Affidavit....................................................... 27
B. Expert Rule 26(a)(2(B) Report

29

VII. This Court Should Grant Certiorari Because
Trial Court Rested Its Judgment Upon the Unresolved
Elements of the Complaint and Failure to Settle the
Parties’ Rights with Respect to Those Issues
30
CONCLUSION

33

v

INDEX TO APPENDICES
APPENDIX A: District of Columbia Court of Appeals
Memorandum Opinion and Judgment
No. 18-CV-1277 Filed November 25, 2019 ................ la
APPENDIX B: District of Columbia Court of Appeals
Order Denying Petition for Rehearing by the Division
No. 18-CV-1277, Filed December 20, 2019
9a
APPENDIX C: District of Columbia Superior Court
Order Granting Summary Judgment to Defendants,
No. 2017 CA 006775 B,
Filed November 19, 2018........................................... 11a

vi

TABLE OF AUTHORITIES
CASES
Page(s)
Adickes v. S.H. Kress & Co.,
398 U.S. 144, 157, 90 S. Ct.
1598, 26 L. Ed. 2d 142 (1970)

29

Alexander v.
193 F.R.D. 1, 3 (D.D.C. 2000)

24

Armstrong v. Manzo,
380 U. S. 545,
380 U. S. 552 (1965)

10, 24

Arnett v. Kennedy,
416 U.S. 134, 167 (1974)

11

Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 257 (1986).........

25, 26

Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 249
(1986)........................................

27, 28

Ashcroft v. Iqbal,
556 U.S. 662 (2009)

31

Balwin v. Hale,
1 Wall 223, 233, 17 L. Ed. 531 (1863))

13

Ball v. Union Carbide Corp.,
385 F.3d 713, 719
(6th Cir. 2004).....................

Vll

25, 26

Earnhardt v. District of Columbia,
No.lO-SP-178, 2010 WL 4642056
(D.C. Nov. 18, 2010).....................

20

Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007)..........

31

Bell v. Burson,
402 U. S. 535, 402 U. S. 542
(1971)..................................

10

Boddie v. Connecticut,
401 U. S. 371, 401 U. S. 379
(1971)...................................

10

Bolton v. Bernabei & Katz, PLLC,
954 A.2d at 963 (D.C.2008)........

31

Caldwell v. Mississippi,
472 U.S. 320 (1985

21

Carey v. Piphus,

435 U.S. 247, 260, 98 S. Ct. 1042, 1050,
55 L.Ed.2d 252 (1978)........................

10

Celotex Corp. v. Catrett,
477 U.S. 317, 326(1986)

25

Celotex Corp. v. Catrett,
477 U.S. 317, 322(1986)

7, 26

Consolidated Edison Co. v. NLRB,
305 U.S. 197, 229 ..........................

29

Daniels v. Williams,
(1986) 474 U.S. 327, 337

10

vm

Darden v. Wainwright,
477 U.S. 168, 181-82 (1986)

21

Dickinson v. Zurko,
527 U. S. 150, 153 (1999)

29

Earle v. McVeigh,
91 US 503, 23 L Ed 398

11

Equal Rights Ctr. v. Post
Properties, Inc.,
246 F.R.D. 29, 32 (D.D.C. 2007)

24

Flowers,
547 U.S. at 229

14

Fuentes v. Shevins,
407 U.S. 67, 82 (1972)

13, 24

General Electric Co. v. Joinerx
522 U.S. 136 (1997) ...............
Grannis v. Ordean,
234 U.S. 385, 394 .

30

10, 24

Greater Boston Television Corp. v. FCC,
462 F.2d, 279 (D.C. Cir. 1971) ..............

18

Kammerman v. Kammerman,
543 A.2d 794, 799 (D.C. 1988)

11

Laffey v. Nw. Airlines, Inc.,
642 F.2d 578, 585
(D.C. Cir. 1980).................

32

IX

Loudermill,
470 U.S. at 541 (quoting Arnett v. Kennedy,
416 U.S. 134, 167 (1974).................................
Marbury v. Madison,
5 U.S. 137 (1803) . .

8, 11

9

Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 587 (1986)............................................ 29
Mazza v. Housecraft LLC,
Case No. 09-CV-1068
(D.C. 2011)........................

31

Miller v. Pate,
386 U.S. 1 (1967)

21

Morrissey v. Brewer,
408 U. S. 471, 408 U. S. 481
(1972)...................................

10

Mullane v. Central Hanover
Bank & Trust Co.,
339U. S. 306, 339U. S.313
(1950).....................................

5, 10, 13, 24

Pennoyer v. Neff,
95 U.S. 714, 732-733 (1878)

11

Poola v. Howard Univ.,
147 A.3d 267, 276
(D.C. 2016)..................

31

Richardson v. Perales,
402 U.S. 389, 401 (1971)

29

x

Scheuer v. Rhodes,
416 U. S. 232, 236 (1974)

32
7,8

Tippet v. Daly (D.C. 2009)
United States v. Agurs,
427 U.S. 97, 107 (1976)

21

United States v. Diebold,
369 U.S. 654, 655, 82 S. Ct. 993,
8 L. Ed. 2d 176 (1962)..............

29

United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260, 270, 130 S. Ct.
1367, 1377 (2010)...........................................

11

STATUTES
Tenant Opportunity to Purchase
Act ("TOPA"), D.C. Code § 42-3404.02, et seq . passim
D.C. Code § 22-723

16, 18, 21

D.C. Code § 22-722

17, 18

D.C. Code § 42.3404.09

19

D.C. Code § 42.3404.09 (2)

7, 19

D.C. Code § 42-3404.10(2)

7, 19

D.C. Code § 42-3404.11(2)

7, 19

xi

MISCELLANEOUS
Black's Law Dictionary (8th ed. 2004)

11

8B Charles Alan Wright, et al
Fed. Pract. & Proc. § 2162
(3d ed. 2012).............................

24

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. XIV,
Sect. 1.............................

passim

RULES
The Sup. Court of District of Columbia
Rule of Civ. Proc. 56(d)........................

23,25

The Sup. Court of District of Columbia
Rule of Civ. Proc. 56(c) ........................

6

The Sup. Court of District of Columbia
Rule of.Civ. Proc. 56(c)(4)....................

28

The Sup. Court of District of Columbia
Rule of Civ. Proc.
26(a)(2)(B)

29

XU

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Mirek Machala respectfully petitions for a
writ of certiorari to review the judgment of the District
of Columbia Court of Appeals in this case. The
questions presented here are of constitutional
importance.
OPINIONS BELOW
The Memorandum Opinion and Judgment of District of
Columbia Court of Appeals of November 25, 2019 to
review the merits appears at Appendix A to the petition
and is unpublished.
The order denying petition for rehearing was entered on
December 20, 2019 (No. 18-CV-1277 of the District of
Columbia Court of Appeals is reproduced in the
Appendix B.
JURISDICTION
On November 20, 2019 the District of Columbia Court
of Appeals (DCCA) decided the case. A copy of the
memorandum and opinion appears at "Appendix A". A
timely petition for rehearing was thereafter denied on
December 20, 2019, and a copy of the order denying
rehearing appears at Appendix B. DCCA has decided
an important federal question in a way that conflicts
with the relevant decision of the United States
Supreme Court. This Court has jurisdiction pursuant to
28 U.S.C. § 1257(a), and the Fourteenth Amendment of
the United States Constitution.
STATUTORY PROVISIONS INVOLVED
U.S. CONST. Amend. 14, § 1 provides:

All persons bom or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside.
No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
The jurisdiction of the Court is invoked under 28 U.S.C.
§ 1257 (a) which provides:
Final judgments or decrees rendered by the highest
court of a State in which a decision could be had, may
be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United
States is drawn in question or where the validity of a
statute of any State is drawn in question on the ground
of its being repugnant to the Constitution, treaties, or
laws of the United States, or where any title, right,
privilege, or immunity is specially set up or claimed
under the Constitution or the treaties or statutes of, or
any commission held or authority exercised under, the
United States.
STATEMENT OF THE CASE
Ultimately, this case is about due process afforded
under state law and the interplay between the
Fourteenth Amendment.
Petitioner claims that he has been deprived of property
interest without due process of law in violation of the
Fourteenth Amendment.

2

Petitioner has no other adequate means to attain relief
from a fundamentally misguided and improper trial.
Quite aside from the fatal flaws with respect to due
process, this suit simply is not one that this court may
entertain consistent with the Constitution.
A. FACTUAL BACKGROUND
1. Statement of the case setting out the facts
material to consideration of the questions
presented.
This case arises from the Civil Division of the D.C.
Superior Court and that Court’s decision to deny the
Plaintiff Machala’s complaint and claim against the
subject property located in Washington, DC, and owned
by Defendant Libuse Krai.
In this case, Plaintiff Machala, long-term tenant, was
evicted illegally from the property, robbed by both
Defendants,, and his legally protected interest, TOPA
rights, was disposed of to the satisfaction of the Stewart
Title Insurance Company, who removed TOPA
exception from the title commitment.
Petitioner Mirek Machala filed this lawsuit on October
6, 2017, for “Specific Performance and Damages”
against Defendants Libuse Krai and Nicholas A.
Brown.
The Complaint alleged Defendants had violated
Plaintiffs TOPA rights (as set forth in the Complaint).
As a result of Defendants’ reprehensible conduct, the
Plaintiff sustained damages.

3

Defendants Krai and Brown (referred to as “Libuse
Krai, et al.”) filed the instant motion for summary
judgment on the Plaintiffs claim; Plaintiff Machala
opposed it.
Petitioner objected to Defendants’ motion for summary
judgment arguing that inadmissible evidence, and
unresolved disputed genuine issues of material fact,
preclude summary judgment.
On November 19, 2018, in an unusual move the
Superior Court granted summary judgment and
dismissed Machala's action. The Superior Court held
that there is no genuine dispute of material fact and
that Defendants are titled to summary judgment, and
entered judgment for Defendants, Nov. 19, 2018 Order
Appendix C.
In that Order the Superior Court dismissed all of
Machala’s claims for violation of his TOPA rights. App.
Machala filed timely his Notice of Appeal on December
6, 2018. On November 20, 2019 the three judge panel
for the District of Columbia Court of Appeals (DCCA)
decided the case, and affirmed decision of the trial
court. Appendix A.
Petitioner sought rehearing of that decision and it was
denied on December 20, 2019. See Appendix B.
REASONS FOR GRANTING THE WRIT
First, DCCA and District of Columbia Superior Court
had deprived Petitioner of his constitutional right to
Due Process.

4

Second, DCCA Opinion conflicts with relevant decisions
of this court; DCCA decision supersedes Supreme Court
decisions.
Third, DCCA abused its discretion in affirming the D.C.
Superior Court November 19, 2018 decision and order.
A variety of factors lead Petitioner Machala to conclude
that a writ of certiorari is proper and necessary in this
case because the lower court’s decision is incorrect. The
lower court’s decision is inconsistent with established
Supreme Court precedent that procedural due process
generally requires that a deprivation of a property right
be preceded by notice and opportunity for hearing
appropriate to the nature of the case. Mullane v.
Central Hanover Bank & Trust Co., 339 U.S. 306, 70 S.
Ct.652 (1950).
Relevant issues are addressed in detail below.
Blatant errors caused by the trial court and overlooked
by the panel would cause manifest injustice and
irreparable harm to Machala.
The DCCA abused its discretion in affirming the D.C.
Superior Court November 19, 2018 decision and order.
In the memorandum opinion and judgment DCCA
ignored and failed to consider the findings and
conclusion of law in the trial court's November 19, 2018
decision and order were not supported by substantial
evidence in the record that the November 25, 2019
Memorandum Opinion and Judgment affirmed.
The DCCA judgment works a substantial injustice and
irreparable harm upon Machala, and the injustice
cannot otherwise be remedied. There is substantial
doubt as to whether the panel erred and that cert

5

petition is necessary to prevent manifest injustice.
Allowing the judgment to stand in full force and effect
would perpetuate a grave injustice against Machala.
The cert petition presents an important, recurring
question of constitutional law. The U.S. Supreme Court
has repeatedly held that due process requires
governments to provide an opportunity to be heard
before any state deprive any person of life, liberty, or
property, without due process of law. The panel’s
apparent oversight contradicts this established
constitutional rule, and lacks an evidentiary standard
that is constitutionally compliant. A question of
significant importance has aroused concerning a party's
right to be heard in original proceedings before D.C.
Superior court.
DEPRIVATION OF CONSTITUTIONAL RIGHT
I.

This Court Should Grant Certiorari
Because the DCCA Opinion Conflicts
with Decisions of This Court and DCCA.

There is a substantial question whether the panel’s
decision in this case conflicts with Supreme Court
precedent.
Here, the panel’s decision directly conflicts with an
existing opinion by the Supreme Court precedent in its
interpretation. The conflict is entrenched and warrants
review. The Court of Appeals' position is inconsistent
with the standard for summary judgment set forth in
Rule 56(c), which provides that summary judgment is
proper "if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with
the affidavits, if any, show that there is no genuine

6

issue as to any material fact and that the moving party
is entitled to a judgment as a matter of law." See
Celotex Corp. v. Catrett, All U.S. 317, 322 (1986). The
Court of Appeals apparent oversight supersedes a
Supreme Court decision.
The panel determined, contrary to established Supreme
Court case law, that disputed material facts and doubts
as to facts or the existence of facts don’t need to be
resolved against the moving party. The Court of
Appeals did not question any of the findings of
historical fact which had been made by the trial court,
but simply condensed issues presented by Appellant
into one: whether the trial court erred in granting
appellees — defendants joint motion for summary
judgment, and concluded it did not, and affirmed trial
court judgment. Here, the panel’s apparent oversight
contradicts precedent set in the Supreme Court cases
set forth herein.
Furthermore, the November 25, 2019, D.C. Court of
Appeals (DCCA) Memorandum Opinion and Judgment
in this case creates a conflict with DCCA's holding in
Tippet vs Daly (D.C. 2009).
Here, the Court of Appeals' position is inconsistent with
- and substantially distorts - the opinion set and relied
upon in the case Tippet v. Daly (D.C. 2009). The Court
of Appeals said:
“Later sections of TOPA dealing with the sale of
accommodations of different sizes all use common
language to refer back to this requirement: “For every
dav of delay in providing information bv the owner as
required bv this subchapter, the negotiation period is
extended bv 1 day.” § 42-3404.09(2); § 42-3404.10(2); §
42-3404.11(2) (emphasis added).

7

Relying primarily on the court’s precedent in Tippet v
Daly, Machala argues that reversing the judgment in
this case is appropriate because: (1) ... has rendered
DCCA previous decision affirming trial court judgment
“demonstrably wrong,” and (2) failure to reverse the
judgment would produce an unwarranted disparity
between him and similarly situated litigants in other
cases. It is in the interest of the DCCA to reverse the
judgment to protect the integrity of the processes and
decisions.
II.

This Court Should Grant Certiorari to
Address a Recurring Question of
Opportunity to Be Heard in A
Meaningful Manner in Original
Proceedings Before D.C. Superior Court.

The touchstone of procedural due process is the
fundamental requirement that an individual be given
the opportunity to be heard "in a meaningful manner."
See Loudermill v. Cleveland Bd. ofEduc., 721 F.2d 550,
563 (6th Cir.1983), affd, 470 U.S. 532, 105 S. Ct. 1487,
84 L. Ed. 2d 494 (1985).
DCCA’s and D.C. Superior Court’s failure to afford the
Petitioner opportunity to be heard in a meaningful time
and meaningful manner is sufficient consideration for
granting a certiorari review.
DCCA decided the case without an opportunity to be
heard on the issue that ultimately determines the case
outcome, and in the absence of such opportunity, a
plaintiff was denied procedural due process.

8

III.

This Court Should Grant Certiorari
Because the Judgment Rendered in
Violation of Due Process is Void.

A. Judgment Was Rendered in Violation
of the Due Process.
The due process guarantee expressed in the Fourteenth
Amendment to the United States Constitution requires
assurance of fundamental fairness during legal
proceedings. U.S. CONST, amend. XIV, Sect. 1:
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
"No provision of the Constitution is designed to be
without effect. Any Thing that is in conflict is null and
void of law." Marbury v. Madison, 5 U.S. 137 (1803).
The DCCA did not respect Petitioner's due process right
and denied him the opportunity to be heard. The right
of a litigant to be heard is one of fundamental rights of
due process of law. The DCCA denied both Petitioner’s
request for oral argument and Petition for Rehearing.
Judgment rendered by the trial court violated the due
process clause of the Fourteenth Amendment. The Due
Process Clause of the Fourteenth Amendment contains
“a guarantee of fair procedure, sometimes referred to as

9

procedural due process”. Daniels v. Williams (1986) 474
U.S. 327, 337.
The U.S. Supreme Court has described "the root
requirement" of the Due Process Clause as being "that
an individual be given an opportunity for a hearing
before he is deprived of any significant property
interest." Boddie v. Connecticut, 401 U. S. 371, 401 U.
S. 379 (1971) (emphasis in original); see Bell v. Burson,
402 U. S. 535, 402 U. S. 542 (1971).
An essential principle of due process is that a
deprivation of life, liberty, or property "be preceded by
notice and opportunity for hearing appropriate to the
nature of the case." Mullane v. Central Hanover Bank &
Trust Co., 339 U. S. 306, 339 U. S. 313 (1950). Once it is
determined that the Due Process Clause applies, "the
question remains what process is due." Morrissey v.
Brewer, 408 U. S. 471, 408 U. S. 481 (1972). The answer
to that question is not to be found in the District of
Columbia statute. A fundamental requirement of due
process is "the opportunity to be heard." Grannis v.
Ordean, 234 U.S. 385, 394. “The Due Process Clause
requires provision of a hearing "at a meaningful time."
Armstrong v. Manzo, 380 U. S. 545, 380 U. S. 552
(1965).
Procedural due process, based on principles of
“fundamental fairness,” addresses which legal
procedures are required to be followed in state
proceedings. Relevant issues, as discussed in detail
below, include notice, opportunity for hearing,
confrontation and cross-examination of adverse
witnesses, discovery, and basis of decision. Procedural
due process rules are meant to protect persons not from
the deprivation, but from the mistaken or unjustified
deprivation of life, liberty, or property. Carey v. Piphus,

10

435 U.S. 247, 260, 98 S. Ct. 1042, 1050, 55 L.Ed.2d 252
(1978).
A judgment may not be rendered in violation of
constitutional protections. The validity of a judgment
may be affected by a failure to give the constitutionally
required due process notice and an opportunity to be
heard. Earle v. McVeigh, 91 US 503, 23 L Ed 398. “A
judgment rendered in violation of due process is void in
the rendering State and is not entitled to full faith and
credit elsewhere.” Pennoyer v. Neff, 95 U.S. 714, 732733 (1878). A judgment is void “only if the court that
entered it had no jurisdiction over the parties or the
subject matter” or “if the court's action was otherwise so
arbitrary as to violate due process of law.” Kammerman
v. Kammerman, 543 A.2d 794, 799 (D.C.1988) (citations
omitted).
"A. void judgment is a legal nullity. See Black's Law
Dictionary 1822 (3d ed. 1933); see also id., at 1709 (9th
ed. 2009)." United Student Aid Funds, Inc. v. Espinosa,
559 U.S. 260, 270, 130 S. Ct. 1367, 1377 (2010).
The November 25, 2020 memorandum opinion and
judgment of DCCA should be reversed because the
record substantiate conclusion of law is not supported
by substantial evidence in the record, the DCCA’s
findings do not rationally support the conclusion of law.
"While the legislature may elect not to confer a property
interest..., it may not constitutionally authorize the
deprivation of such an interest, once conferred, without
appropriate procedural safeguards." Loudermill, 470
U.S. at 541 (quoting Arnett v. Kennedy, 416 U.S. 134,
167 (1974) (Powell, J., concurring)).

11

The judgment rendered by the trial court and affirmed
by DCCA is so affected by a fundamental infirmity that
the infirmity may be raised even after the judgment
becomes final. The judgment contains no findings of
fact supported by evidence to support its summary
judgment for the Defendants. The trial court does not
apply the correct law or rests its decision on a clearly
erroneous finding of a material fact. There is no
substantial and credible evidence supporting its
finding.
The trial court acted in a manner inconsistent with due
process of law. The procedures employed at trial were
constitutionally insufficient, violated the due process
clause of the Fourteenth Amendment, and deprived
Plaintiff of fundamental due process. The trial court’s
denial of the due process acted to unreasonably and
arbitrarily deprive Plaintiff of his ability to fully protect
his essential rights.
The trial court repeatedly denied Plaintiffs motion for
discovery regardless of Defendants’ egregious,
intentional behavior, including withholding key
documents required by TOPA, allowing inadmissible
evidence, and in combination with other misconduct,
such as providing the court with false statements not
supported by the evidence, and material
misrepresentations and improper conduct by counsel,
who has fraudulently presented facts to court, including
withholding key fabricated evidence such as Affidavit of
Process Server from the court below, and failure to
serve required TOPA notices, as well as the intentional
submission of fraudulent documents to the D.C.
government that strike at the basic functioning of the
judicial process, undermined the integrity of the judicial
process and influenced the decision of the court, and

12

resulted in denial of due process and violation of
Plaintiffs TOPA rights.
1. Required TOPA Notices - Service of Process
Violated Due Process.
“For more than a century the central meaning of
procedural due process has been clear: "Parties whose
rights are to be affected are entitled to be heard; and in
order that they may enjoy that right they must first be
notified." Fuentes v. Shevin, 407 U.S. 67, 80, 92 S. Ct.
1983, 1994 (1972) (quoting Balwin v. Hale, 1 Wall 223,
233, 17 L. Ed. 531 (1863)).
The Due Process Clause of the Fourteenth Amendment
prohibits states from depriving any person of property
without “due process of law.” U.S. Const.amend. XIV.
“[D]ue process in any proceeding which is to be accorded
finality is notice reasonably calculated, under all the
circumstances, to apprise interested parties of the
pendency of the action and afford them an opportunity
to present their objections.” Mullane v. Cent. Hanover
Bank & Trust Co., 339 U.S. 306, 314 (1950).
In Mullane, Justice Jackson explained: [W]hen notice is
a person’s due, process which is a mere gesture is not
due process. The means employed must be such as one
desirous of actually informing the absentee might
reasonably accomplish it. The reasonableness and
hence the constitutional validity of any chosen method
may be defended on the ground that it is itself
reasonably certain to inform those affected...Mullane,
339 U.S. at 314 (Jackson, J.).
“[Assessing the adequacy of a particular form of notice
requires balancing the interest of the State against the

13

individual interest sought to be protected by the
Fourteenth Amendment.” Flowers, 547 U.S. at 229.
The fabricated evidence (Affidavit of Process Server)
withheld by defendants from the court below certainly
didn’t satisfy requirements of due process. Defendants
knew the circumstances of this case rendered the
promise of due process illusory.
DCCA ignored and failed to consider the fact that
Defendant Krai’s failure to effect Service of Process on
the Plaintiff by Certified Mail and/or Process Server is
violation of due process that raised genuine actual
dispute regarding Service of Process that warrants an
evidentiary hearing. In almost every setting where
important decisions turn on questions of fact, due
process warrants the right to call witnesses, and
requires an opportunity to confront and cross-examine
adverse witnesses. Given substantial disputes in
testimonial evidence, including withholding fabricated
evidence by Defendants from the court below, Machala
did not have an opportunity to test the strength of the
fabricated evidence by confronting and cross-examining
adverse witnesses.
2. The Inadequate Opportunity Afforded
Plaintiff to Review Required TOPA
Documents Violated Due Process
DCCA ignored and failed to consider the fact that
Defendant Krai responded to Plaintiff s Request for
Information; however, her response failed to provide
information required by TOPA. As evidenced by the
record, information provided was either incomplete
and/or false, and it was not in compliance with TOPA
statutory requirements. There is no admissible
evidence produced by Defendant Krai in the record.

14

Defendant Krai withheld responsive TOPA documents
and stated that Plaintiff had requested “senseless, non­
existent information.” Discovery of (and thus familiarity
with) the documents required by TOPA was imperative
to the fairness and, more significantly, the
constitutionality of the proceedings. Defendant Krai
called these withheld TOPA (IRS Form 1040, Schedule
E) documents “senseless, non-existent documents” as
evidenced by the record.
The limited opportunity afforded Plaintiff to review the
documents required by TOPA was undisputedly
inadequate, that “Plaintiffs review of the evidence was
sine qua non to satisfy due process,” and that the trial
court’s denial of the due process acted to unreasonably
and arbitrarily deprive Plaintiff of his ability to fully
protect his essential rights.
Defendant Krai’s bad-faith behavior sought to
unlawfully deprive Plaintiff of relevant information in
the case. Notwithstanding Krai's repeated assertions to
the court that no relevant documents existed, related
evidence were actually in the Krai's possession (IRS
Schedule E documents).
Whereas the court did err in refusal to look at the
discarding, destruction or total failure to file the
evidence that was material to the case.
a) Proceedings in The Trial Court Were
Altered by Spoliation of Evidence.
DCCA ignored and failed to consider the fact that
proceedings in the trial court were altered by spoliation
of evidence.

15

Spoliation of evidence is the intentional, reckless, or
negligent withholding, hiding, altering, fabricating, or
destroying of evidence relevant to a legal proceeding.
Black's Law Dictionary (8th ed. 2004).
The spoliation inference is that when a party destroys
evidence, it may be reasonable to infer that the party
had "consciousness of guilt" or other motivation to avoid
the evidence. Based on the evidence presented during
the Hearing/Discovery - 140 Page release of Krai’s
documents it is clear that defendant Krai’s failure to
produce required TOPA documents were done as a
malicious act in bad faith. Plaintiff contends this
procedure was intentional and with malice.
Defendant Krai, herein, did knowingly and willfully
alter, destroy, mutilate, conceal, or remove a record,
document, or other object cover up, falsify, and make a
false entry in a record, document, relevant TOPA
documents with intent to impair its integrity or its
availability for use in the official proceeding in violation
of D.C. Code § 22-723. The undisclosed evidence was
material to the determination of the case final outcome.
D.C. Code § 22-723. Tampering with physical
evidence; penalty.
(a) A person commits the offense of tampering with
physical evidence if, knowing or having reason to
believe an official proceeding has begun or knowing
that an official proceeding is likely to be instituted, that
person alters, destroys, mutilates, conceals, or removes
a record, document, or other object, with intent to
impair its integrity or its availability for use in the
official proceeding.

16

b) Proceedings in The Trial Court Were
Disrupted by Obstruction of Justice in
Violation of Due Process.
DCCA ignored and failed to consider the fact that
proceedings in the trial court were disrupted by
obstruction of justice.
Black's Law Dictionary defines obstruction of justice as
any "interference with the orderly administration of law
and justice".
Obstructing the Due Administration of Justice consists
of (1) the defendant obstructing or impeding or
attempting to obstruct or impede the due
administration of justice in a pending court proceeding
or investigation and (2) the defendant doing so by
threats of force or by endeavors to influence, with intent
to undermine the integrity of the pending proceeding or
investigation. D.C. Code § 22-722 Prohibited acts.
Whereas the matter is limited to controlling
intervening circumstances of obstructing justice, which
did in fact occur to manipulate decision making.
Whereas not filing, the destruction of or discarding of
key information, actions committed does in fact directly
affect the decision making with consequential affects
and violates due process and equal protection under the
law.
The spoliation inference is a negative evidentiary
inference that a finder of fact can draw from a party's
destruction of a document or thing that is relevant to an
ongoing or reasonably foreseeable civil proceeding; the
finder of fact can review all evidence uncovered in as

17

strong a light as possible against the spoliator and in
favor of the opposing party. Defendant Krai’s bad-faith
behavior sought to unlawfully deprive Plaintiff Machala
of relevant information in the case. The Krai’s
withholding of evidence that was material to the
determination of the case final outcome violates the
Plaintiffs constitutional right to due process, and its
suppression undermined confidence in the outcome of
the trial.
An attorney acting to withholding and/or to condone his
client destroying, discarding or not filing records as
evidence of documentation of Krai’s rental business
constitutes obstruction of justice and spoliation to give
fair conclusion and transparency for a reviewing court,
including the DCCA, to rule satisfactorily, by unilateral
review in particular as an act of civil obstruction
according to D.C. Code § 22-723, and D.C. Code § 22722 - endeavors to influence.
Such obstruction did warrant sanctions in violation of
the Due Process Clause of U.S. CONST. Amendment
XIV, Sec. 1 by Defendant Krai's attorney endeavors to
influence.
Defendant Krai’s behavior is clear and convincing
evidence of intentional misconduct specifically directed
at the court itself. Her abuse of the judicial process had
entered into the procurement of the judgment. The
"spirit of the 'fraud on the court' rule is applicable
whenever the integrity of the judicial process or
functioning has been undercut--certainly in any
instance of misconduct by a party." Greater Boston, 462
F.2d at 279 (D.C. Cir. 1971).
DCCA ignored and failed to consider the fact that the
trial court erred in not giving the matter Due Process of

18

law. As such the court abandoned Plaintiffs Equal
protection under the law by influence, which is
articulated in explaining how this equates to spoliation.
Whereas such failures did result in the trial court’s
denial of the due process, and acted to unreasonably
and arbitrarily deprive Plaintiff of his ability to fully
protect his essential rights.
Certiorari should be granted to correct judicial error
that negated evidence that was critical and severely
hampered the Constitutional Rights of Equal Protection
and Due Process of the law to avoid an unconscionable
injustice growing out of Defendants misconduct
undercutting the integrity of the administrative or
judicial process.
3. TOPA Negotiation Period
As it is evidenced by the record, Machala acted in
compliance with a TOPA process that required the
completion of a series of steps by the parties over a
period of time, that were legally justified under given
circumstances, and that the deal would go to closing in
a reasonable time that was fully under Defendant
Krai’s control. However, Defendant Krai failed and/or
refused to execute the sale of the subject property,
abused the process against Machala, and failed to close
on the subject property with Machala.
Defendant Krai failed to act in compliance with law,
more specifically, D.C. Code that provides: “For every
day of delay in providing information by the owner as
required by this subchapter, the negotiation period is
extended by one (1) day.” § 42-3404.09(2); § 423404.10(2); § 42-3404.11(2) (2001), and instead, closed

19

on the subject property with Defendant Brown within
the negotiation period with Machala.
As is evidenced by these facts, the only bar to the
performance of the contract was Krai's failure and
refusal to execute the sale of the subject property in
compliance with TOPA. Krai was unwilling to perform
on the contract, and sell the property to Machala.
Evidently, the subject property was sold to Defendant
Brown in clear violation of Machala’s TOPA rights,
without exception to TOPA rights. Krai carried out the
TOPA process and negotiated in bad faith; dishonestly
and not openly, and with intent to deceive and harm
Machala. Consequently, Machala and Krai did not close
on the sale within the allotted negotiation period for
reasons that were disputed at trial and not resolved by
the trial court. Accordingly, Krai violated TOPA rights
when she sold the subject property to Brown without
affording Machala to exercise his right of purchase in
compliance with applicable law. Indeed, Krai’s bad faith
negotiation permeated every aspect of this case.
As explained by DCCA, in a similar case, where the
trial judge misinterpreted a statutory time period and
did not make fact-findings required by a correct
interpretation, we have said that the case should be
remanded to the trial court “with instructions for such
further proceedings and factual development as might
be appropriate to permit the court to apply the correct
interpretation” of the statute. See Barnhardt v. District
of Columbia, No.lO-SP-178, 2010 WL 4642056 (D.C.
Nov. 18, 2010).
In the instant matter, the trial court ignored and failed
to consider rules, statutes, regulations and laws in
regard to the facts and evidence in this case. The trial

20

court analysis was not drawn from D.C. precedents, and
it inaccurately stated and applied TOPA law.

4. Defendant Krai’s False Assertions Violated Due
Process
As evidenced by the record, the false statements made
by defendant Krai to falsify material facts not
supported by the evidence, is a violation of due process.
Krai’s false statements undoubtedly tended to injure
Machala’s opportunity to exercise his TOPA rights and
reputation. Krai had failed to come forward with any
admissible evidence to support it.
Defendant Krai herein, did knowingly and willfully
alter, destroy, mutilate, conceal, or remove a record,
document, or other object cover up, falsify, and make a
false entry in a record, document, relevant TOPA
documents with intent to impair its integrity or its
availability for use in the official proceeding in violation
of D.C. Code § 22-723.
The trial court ignored and failed to consider violation
of D.C. Code set forth above as well as U.S. Supreme
Court's holding in the cases set forth below.
Using false or fraudulent evidence “involve [s] a
corruption of the truth-seeking function of the trial
process.” United States v. Agurs, 427 U.S. 97, 107
(1976). See also Miller v. Pate, 386 U.S. 1 (1967)
(finding that a deliberate misrepresentation of truth to
a jury is a violation of due process); Caldwell v.
Mississippi, 472 U.S. 320 (1985) (finding that an
uncorrected, misleading statement of law to a jury
violated due process); Darden v. Wainwright, 477 U.S.
168, 181-82 (1986) (improper argument and

21

manipulation or misstatement of evidence violates due
process). Here, the Court of Appeals' apparent oversight
contradicts the precedent set in the U.S. Supreme
Court cases set forth herein.
IV.

This Court Should Grant Certiorari
Because DCCA Abused its Discretion in
Affirming the D.C Superior Court August
18, 2018 Decision and Order.

The DCCA clearly and indisputably erred by affirming
District of Columbia Superior Court Judgment. In
determining whether DCCA abused its discretion,
consideration is given to "whether the decision maker
failed to consider a relevant fact whether he [or she]
relied upon an improper factor and whether the reasons
given reasonably support the conclusion. In the instant
matter, DCCA ignored and failed to consider rules,
statutes, regulations and laws in regard to the facts and
evidence in this case.
In the memorandum and opinion DCCA ignored and
failed to consider the findings and conclusion of law in
the trial court's August 18, 2018 decision and order
were not supported by substantial evidence in the
record that the November 25, 2019 memorandum and
opinion affirmed.
V.

This Court Should Grant Certiorari
Because the Trial Court's Order Denying
Petitioner Motions to Compel Discovery
Deprived Him of Due Process and Equal
Protection of Law.
A. Discovery in this Case is Incomplete

22

DCCA ignored and failed to consider the fact that
denied opportunity afforded Plaintiff to conduct
discovery violated Due Process. There is no evidence
that Plaintiff delayed discovery or was not diligent in
pursuing discovery or choosing not to file a motion to
compel. On the contrary, the record indicates that
Machala demonstrated diligence in asserting his claim.
Nevertheless, discovery in this case is incomplete and
certainly would raise additional disputed genuine
issues of material facts when completed. Defendant
Krai objected to all Plaintiffs Interrogatories except
two as is evidenced by the court record. The record
shows that not only did Krai fail to answer
interrogatories but the responses which Krai did file
were not found by the trial Court to be grossly
inadequate regardless of the fact that crucial
interrogatories had remained substantially
unanswered; Krai objected to all but two
interrogatories. Regardless of Krai willful failure to
comply with discovery rules under D.C. Sup. Ct. R. Civ.
Procedure, the trial court repeatedly denied Plaintiffs
motions for discovery, including Motion for Discovery
under Rule 56(d), and soundly rejected Plaintiffs
argument, opining:
“this Court finds that those motions are unnecessary
here. Based on the record and docket, all parties have
appeared in multiple hearings before this Court
regarding motions to compel discovery and have
adequate opportunities to pursue said discovery.
Therefore, based on the record showing that there is no
genuine dispute of material fact, this Court finds that
Defendants are entitled to summary judgment”, as is
evidenced by the court record.
The court didn’t take any action to do whatever is
reasonably necessary to deter abuse of the judicial

23

process. Plaintiffs motions to compel discovery were
improperly denied. A fundamental requirement of due
process is "the opportunity to be heard." Grannis v.
Ordean, 234 U.S. 385, 394. It is an opportunity which
must be granted at a meaningful time and in a
meaningful manner. The trial court could have fully
accorded this right to the Plaintiff only by granting his
motion to compel discovery. Only that would have
restored the Plaintiff to the position he would have
occupied had due process of law been accorded to him in
the first place. His motion to compel discovery should
have been granted. The discovery would lead to
relevant evidence. Due process requires that hearing be
"appropriate to the nature of the case"; Mullane v.
Central Hanover Bank & Trust Co., 339 U.S. 306, 313
(1950). Opportunity to be heard must be provided
before deprivation takes effect; Fuentes v. Shevins, 407
U.S. 67, 82 (1972). Opportunity to be heard must be
afforded "at a meaningful time and in a meaningful
manner"; Armstrong v. Manzo, 380 U.S. 545, 552
(1965).
Interrogatories, as a part of the discovery process, help
litigants prepare for trial by narrowing the issues and
determining what evidence they will need at trial. 8B
Charles Alan Wright, et al., Fed. Pract. & Proc. § 2162
(3d ed. 2012).
Parties must answer interrogatories “fully” with “true,
explicit, responsive, complete and candid” answers.
Equal Rights Ctr. v. Post Properties, Inc., 246 F.R.D. 29,
32 (D.D.C. 2007). “The party objecting to...discovery
bears the burden of ‘show[ing] why discovery should not
be permitted,’’’Alexander v. F.B.I., 193 F.R.D. 1, 3
(D.D.C. 2000) (internal citations omitted). Courts treat
evasive or incomplete answers to interrogatories as a
failure to respond. F.R.C.P. 37(a)(4).

24

Rule 56(d) prevents a nonmoving party from being
“railroaded” into summary judgment by a “premature
motion.” Celotex Corp. v. Catrett, All U.S. 317, 326
(1986).
The purpose behind Rule 56(d) is to ensure that
plaintiffs receive “‘a full opportunity to conduct
discovery’ to be able to successfully defeat a motion for
summary judgment.” Ball v. Union Carbide Corp., 385
F.3d 713, 719 (6th Cir. 2004) (quoting Anderson v.
Liberty Lobby, Inc., All U.S. 242, 257 (1986)).
The limited opportunity afforded Plaintiff to conduct
discovery was undisputedly inadequate, that “Plaintiffs
review of the evidence was sine qua non to satisfy due
process,” and that “the trial court’s denial of the due
process acted to unreasonably and arbitrarily deprive
Plaintiff of his ability to fully protect his essential
rights.
The DCCA overlooked the fact that the trial court
ignored and failed to consider the Supreme Court's
holding in the cases set forth above. In this case, there
was no ground for the exercise of discretion to make a
judgment as to whether discovery should be allowed asto written interrogatories in favor of Plaintiff. The trial
court's decision to deny Plaintiffs motion to compel
discovery was so manifestly erroneous as to constitute
an abuse of discretion. The trial court’s ruling was
arbitrary, unjustifiable, or clearly unreasonable.
Plaintiff was, in fact, prejudiced by the lack of
discovery.
Therefore, the trial court abused its discretion in
granting Defendants’ summary judgment and striking
Plaintiffs allegations before there was a full
opportunity to conduct discovery. Plaintiff did not

25

receive ‘“a full opportunity to conduct discovery’ to be
able to successfully defeat a motion for summary
judgment.” Ball v. Union Carbide Corp., 385 F.3d 713,
719 (6th Cir. 2004) (quoting Anderson v. Liberty Lobby,
Inc., All U.S. 242, 257 (1986)).
The trial court’s decision to grant summary judgment to
Defendants cannot be reconciled with the U.S. Supreme
Court’s unanimous decision in Celotex Corp. v. Catrett,
All U.S. 317, 322 (1986), the holding of which is
completely overlooked or ignored in the trial Court’s
decision.
Entry of summary judgment is proper only “after
adequate time for discovery and upon motion, against a
party who fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Celotex Corp. v. Catrett, All
U.S. 317, 322 (1986) (emphasis added).
Further, the DCCA gave trial court the ability to
continue to deprive Petitioners the opportunity to be
heard in a meaningful time and manner, and equal
protection of law when the DCCA denied Petitioner
petition for rehearing within no time and without
providing any reasons for denial.
These blatant errors caused by the trial court and
overlooked by the panel had deprived Plaintiff of his
constitutional right to due process.

VI. This Court Should Grant Certiorari Because
Trial Court Rested Its Judgment Upon the
Existence of Unresolved Disputed Genuine Issues

26

of Material Fact Which Preclude Summary
Judgment.
There remain in dispute genuine issues of material fact
which do not support the summary disposition of the
trial court. The panel overlooked the fact that trial
court ignored and failed to consider U.S. Supreme
Court’s holding in Anderson v. Liberty Lobby, Inc., All
U.S. 242 (1986): “Summary judgment will lie when,
taking all factual inferences in the non-movant's favor,
there exists no genuine issue as to a material fact such
that the movant deserves judgment as a matter of law.”
Mr. Machala’s proceedings have been plagued by
serious defects which undermine the confidence in their
results. Existing disputed genuine issues of material
fact have not been resolved by the court. Here,
Defendant Krai failed to comply with the TOPA
requirements. As is evidenced by the court record,
despite repeated requests by Machala, she failed to
provide information required by TOPA, produced
documents didn’t satisfy TOPA requirements. Krai did
not present competent evidence to the contrary, and
instead, she made conclusory denial that documents
required by TOPA don’t exist, and provided subsidy
$10,000 to Defendant Brown to close on the subject
property, and closed on the property with Brown within
the negotiation period with Machala, which is sufficient
to create a genuine issue of material fact.
A. Inadmissible Evidence - Sharka
Waldhof s Affidavit
DCCA ignored and failed to consider the fact that the
issues related to Sharka Waldhofs Affidavit, based on
shameless lies not supported by evidence in the record,
and raised by Appellant in the trial court when the

27

evidence was introduced, have not been resolved by the
trial court. Allowing inadmissible evidence in a trial is
a legal error and grounds for appeal.
Contrary to Defendants statement, Defendant Krai did
not testify by affidavit; Defendants sought summary
judgment based on an affidavit from witness whom
Plaintiff has been unable to question, even informally.
Defendant Krai’s daughter Sharka Walhofs affidavit
should be stricken pursuant to the Superior Court of
District of Columbia R. Civ. P. 56(c)(4), which prohibits
assertions not based on personal knowledge because
she claimed to know the subjective intent and
knowledge of the Defendant Krai, and as such, the
Affiant is not competent to testify on the matters
stated. Affidavit represents inadmissible evidence.
Plaintiffs objection to evidence was made when the
evidence was introduced in the trial court.
Contrary to the Court of Appeals incorrect findings, this
issue was raised for the first time in Plaintiffs
Memorandum of Points and Authorities in Opposition
to Defendants Joint Motion for Summary Judgment in
the trial court, not in his reply brief. Materials cited do
establish the presence of a genuine issue of material
fact that precludes summary judgment. A genuine
dispute of material fact exists when there is “sufficient
evidence favoring the nonmoving party for a jury to
return a verdict for that party.” Anderson v. Liberty
Lobby, Inc., All U.S. 242, 249 (1986).
In determining whether a genuine dispute of material
fact exists, the court construes all facts and draws all
reasonable and justifiable inferences in favor of the
nonmoving party. Anderson, All U.S. at 255. In
considering such a motion, the court construes all
reasonable factual inferences in favor of the nonmoving

28

party. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986). The Court must view
the material presented in the light most favorable to
the non-moving party, Adickes v. S.H. Kress & Co.,_398
U.S. 144, 157, 90 S. Ct. 1598, 26 L. Ed. 2d 142 (1970),
and resolve all doubts as to facts or the existence of
facts against the moving party. United States v.
Diebold, 369 U.S. 654, 655, 82 S. Ct. 993, 8 L. Ed. 2d
176 (1962).
B. Expert Rule 26(a)(2(B) Report
Defendants simply did not dispute Expert Rule 26
(a)(2(b) report which is sufficient to create a genuine
issue of material fact. The evidence presents a sufficient
disagreement to require submission to a jury. Expert is
highly reputable professional who has top-of-the-line
credentials including professional qualifications and
many years’ experience, able to provide impartial
testimony in court proceedings. Nothing in the record
precludes expert’s testimony from counting as
substantial evidence.
Third, DCCA ignored and failed to consider the fact
that the trial court erred in failing to rule upon the
Expert Rule 26(a)(2(B) Report, and to consider U.S.
Supreme Court’s holding in Richardson v. Perales, 402
U.S. 389, 401 (1971): “Substantial evidence means more
than a mere scintilla; it means such relevant evidence
as a reasonable mind might accept as adequate to
support a conclusion.” It means -- and means only “such
relevant evidence as a reasonable mind might accept as
adequate to support a conclusion.” Consolidated Edison
Co. v. NLRB, 305 U.S. 197, 229. See also Dickinson v.
Zurko, 527 U. S. 150, 153 (1999) (comparing the
substantial-evidence standard to the deferential clearly erroneous standard).

29

In General Electric Co. v. JoinerA 522 U.S. 136 (1997),
the Supreme Court held that abuse of discretion
standard is the proper standard to use when reviewing
evidentiary rulings, including whether to admit or
exclude expert testimony. A proper application of the
correct standard of review indicates that the trial Court
did err in excluding the expert testimony at issue.
VII. This Court Should Grant Certiorari Because
Trial Court Rested Its Judgment Upon the
Unresolved Elements of the Complaint and
Failure to Settle the Parties’ Rights with Respect
to Those Issues.
DCCA ignored and failed to consider the fact that
judgment from a trial court did not resolve all issues in
dispute, and did not settle all of the parties' rights with
respect to those issues when it entered summary
judgment in favor of Defendants. The trial court erred
in failing to rule upon the unresolved elements of the
complaint, and to adequately develop a factual record,
and failed to conduct an evidentiary hearing regardless
of the fact that the record and filings conclusively prove
that the move is entitled to relief. Specifically, unlawful
activities of defendants including theft of the Plaintiffs
property, as evidenced by the court record, have not
been resolved in the hearing by the trial court.
The nature and all elements of the complaint, including
violation of TOPA rights, and unlawful activities of
Defendants, including theft of the Plaintiffs property,
have been addressed in Appellant’s briefs. All Plaintiffs
pleadings are non-conclusory, factual, and plausible. All
the relevant facts were presented properly and timely
in the trial court hearing, and are supported by the
evidence.

30

The D.C. Court of Appeals has “adopted the pleading
standard articulated by the Supreme Court” in Bell Ail.
Corp. v. Twombly, 550 U.S. 544 (2007), and Ashcroft u.
Iqbal, 556 U.S. 662 (2009). See Poola v. Howard Univ.,
147 A.3d 267, 276 (D.C. 2016), and also Mazza v.
Housecraft LLC, Case No. 09-CV-1068 (D.C. Court of
Appeals, April 28, 2011). The Court concluded that the
requirements articulated in Twombly and Iqbal for a
Complaint to survive a Motion to Dismiss apply in the
District of Columbia.
“There must be sufficient facts in a complaint to state a
claim to relief that is plausible on its face for it to avoid
dismissal for failure to state a claim.” Bell Atlantic
Corp. v. Twombly, 550 U.S. 544 (2007). “[D]etailed
factual allegations” are not required, Twombly, 550 U.
S., at 555, but the Rule 8 does call for sufficient factual
matter, accepted as true, to “state a claim to relief that
is plausible on
its face,” id., at 570. A claim has facial plausibility
when the pleaded factual content allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged. Id., at 556.
As stated by this court that “[a]ll that is required when
we consider the sufficiency of the pleading is a short
and plain statement of the claim showing that the
pleader is entitled to relief.” (quoting Bolton v. Bernabei
& Katz, PLLC, 954 A.2d at 963 (D.C.2008)) (internal
quotation marks omitted). Plaintiff did plead sufficient
facts to state a claim to relief that is plausible on its
face, supported by the evidence, and therefore, stated a
plausible claim for relief.
“[W]hen there are well-pleaded factual allegations, a
court should assume their veracity and then determine

31

whether they plausibly give rise to an entitlement to
relief.” Iqbal, supra, 129 S.Ct. at 1950. “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct
alleged.” Iqbal, 129 S. Ct. at 1949. A well-pleaded
complaint may proceed even if it appears “that a
recovery is very remote and unlikely”.
Scheuer v. Rhodes, 416 U. S. 232, 236 (1974).
At last, DCCA ignored and failed to consider the fact
that the trial court did not provide any detailed
explanation for its failure to rule on these issues.
For these reasons, the November 25, 2019
Memorandum Opinion and Judgment of DCCA does
conflict with the abuse of discretion standard.
And now that the errors have been brought to light,
there can be no dispute that the concomitant failure to
correct it would “work a grave injustice” on Mr.
Machala.
See Laffey v. Nw. Airlines, Inc., 642 F.2d 578, 585 (D.C.
Cir. 1980).

32

CONCLUSION
For the reasons stated herein, this Petition for
Certiorari should be granted.
Respectfully submitted,
/s/ Mirek Machala
MIREK MACHALA
Appellant Pro Se
3430 Connecticut Ave., N.W.
No. 4902
Washington, DC 20008
Telephone: 202-556-0756
March 16, 2020

33

